March 28, 2003

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT:      Audit Report – Inventory Management and Maintenance Repair
              Operations (Report Number AC-AR-03-004)

This report presents the results of our audit on inventory management of mail
processing equipment parts and maintenance repair operations (Project
Number 01NR002AC001). Our objectives were to determine whether inventory stock
levels for mail processing equipment parts were appropriate and to identify cost savings
opportunities in the maintenance repair operations. This audit was initiated as a result
of our audit survey of the Postal Service’s Logistics System.

Our audit disclosed that approximately $9 million in mail processing equipment spare
parts exceeding the demand were in inventory at the Topeka Material Distribution
Center as of April 2002. This inventory was the result of item managers maintaining
stock levels that were above demand and because estimates for initial provisioning of
depot spare parts were sometimes overstated. As a result, the Postal Service should
use the $9 million in mail processing equipment repairable spare parts prior to making
any new spare part purchases. In addition, we identified approximately
47,000 individual parts that were awaiting final disposition at the Topeka Material
Distribution Center, some for as long as 4 years. We estimated the value of these parts
at about $13 million, if repaired. We also found that the Topeka Material Distribution
Center shipping and receiving department duplicated the receiving operation of the
Central Repair Facility. As a result, the Postal Service could potentially save
$1.15 million over a 10-year period, by reassigning staff and eliminating the duplicate
receiving department at the Topeka Material Distribution Center.

We made six recommendations to management that included, reevaluating authorized
stock levels; developing a systematic process for estimating depot spare parts;
identifying and disposing of excess parts for end of life equipment; utilizing spare parts
that exceed the normal demand prior to making purchases, and repairing or disposing
of broken parts identified as “Not Ready for Issue.” We also recommended that
management perform a cost benefit analysis of consolidating the receiving function at
the Central Repair Facility and the receiving function at the Topeka Material Distribution
Center. If potential savings are identified, we recommended management modify the
Central Repair Facility contract to allow the contractor to receive, store, and repair
repairable broken parts and ship these repaired items to either the field or distribution
centers.

Management agreed with the recommendations. Management has initiatives in
progress, completed, or planned addressing the issues in this report. Management
disagreed with the value of the excess mail processing spare parts inventory and the
cost savings projections for consolidating the receiving function at the Topeka Material
Distribution Center. Management’s comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Larry Chisley,
director, at (813) 261-5200 or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Richard J. Strasser, Jr.
    John A. Rapp
    Ernest C. Dardis
    Earl J. Jones
    Susan M. Duchek
Inventory Management and Maintenance                               AC-AR-03-004
 Repair Operations



                                TABLE OF CONTENTS
 Executive Summary                                                       i

 Part I

 Introduction                                                            1

           Background                                                    1
           Objectives, Scope, and Methodology                            1
           Prior Audit Coverage                                          2

 Part II

 Audit Results                                                           3

           Inventory Balances Exceed the Demand                          3
              Initial Provisioning of Depot Spares                       3
              Excess Parts Awaiting Final Disposition                    4
           Recommendations                                               5
           Management’s Comments                                         5
           Evaluation of Management’s Comments                           6

           Duplicate Receiving Department                                9
           Recommendation                                                9
           Management’s Comments                                        10
           Evaluation of Management’s Comments                          10

           Matters for Postal Service Management Consideration          11
           Management’s Comments                                        11
           Evaluation of Management’s Comments                          11

 Appendix A. Top Ten Stock Numbers with Excess Part in Inventory        12

 Appendix B. Management’s Comments                                      13




                                       Restricted Information
Inventory Management and Maintenance                                                                      AC-AR-03-004
 Repair Operations


                                         EXECUTIVE SUMMARY
Introduction                       This report presents the results of our self-initiated audit of
                                   inventory management of mail processing equipment parts
                                   and maintenance repair operations. Our objectives were to
                                   determine whether inventory levels for mail processing
                                   equipment parts were appropriate and identify cost savings in
                                   maintenance repair operations.

Results in Brief                   Our audit disclosed that approximately $9 million in excess1
                                   spare parts for mail processing equipment was in inventory at
                                   the Topeka Material Distribution Center as of April 2002.
                                   Excess inventory was the result of item managers maintaining
                                   stock levels above demand and because depot spare part
                                   estimates for newly deployed mail processing equipment were
                                   sometimes overstated. As a result, excess mail processing
                                   equipment spare parts should be used prior to making any
                                   new spare part purchases for mail processing equipment.

                                   In addition, we identified approximately 47,000 broken parts
                                   that were awaiting final disposition in the Topeka Material
                                   Distribution Center, some for as long as 4 years. We
                                   estimated the value of these parts to be approximately
                                   $13 million, if repaired. We also found that the shipping and
                                   receiving department for broken parts at the Topeka Material
                                   Distribution Center duplicated the receiving operation of the
                                   Central Repair Facility. As a result, the Postal Service could
                                   potentially save about $1.15 million over a 10-year period by
                                   reassigning staff and eliminating the duplicate receiving
                                   department at the Topeka Material Distribution Center.

Summary of                         We recommended management reevaluate authorized stock
Recommendations                    levels to ensure the levels reflect demand data in the Material
                                   Distribution and Inventory Management System; coordinate
                                   with the Provisioning Improvement team to develop a
                                   systematic process for estimating depot spare parts; identify
                                   excess repair parts for equipment at the end of its life cycle
                                   and dispose of parts that are no longer needed.

                                   In addition, we recommended the Postal Service use mail
                                   processing equipment repairable spare parts that exceed the
                                   normal demand prior to making any new spare part purchases,


1
    Excess stockage levels are defined as inventory for serviceable material over and above its demand.




                                                           i
                                                Restricted Information
Inventory Management and Maintenance                                            AC-AR-03-004
 Repair Operations



                           and repair or dispose of broken parts identified as “Not Ready
                           for Issue” at the Topeka Material Distribution Center.

                           We also recommended management perform a cost benefit
                           analysis of consolidating the receiving function at the Central
                           Repair Facility and eliminating the function at the Topeka
                           Material Distribution Center to achieve the potential cost
                           avoidance. If potential savings are identified, modify the
                           Central Repair Facility contract to allow the contractor to
                           receive, store, and repair broken parts and ship repaired items
                           to either the field or distribution centers facility.

Summary of                 Management agreed with the recommendations. Management
Management’s               stated that they will review the stocking objective process and
Comments                   develop a solicitation provision that will encourage suppliers to
                           use common parts. In addition, management stated they
                           would identify and dispose of end of life parts, utilize spare
                           parts prior to making any new spare parts purchases, and
                           dispose or repair of “Not Ready for Issue” parts. Management
                           stated they would perform a cost/benefit analysis of
                           consolidating the receiving function at the Central Repair
                           Facility and the Topeka Material Distribution Center.

                           Management disagreed that $15 million in excess spare parts
                           were in inventory. Management stated that based on their
                           sampling of the highest dollar value inventory items, only $1.25
                           million is excess spare parts. The other $13.75 million
                           consists of items for initial provisioning, insurance items, and
                           end-of-life items where no external suppliers are available.
                           Management also disagreed with the 10-year cost savings
                           projection of $1.7 to $2.7 million for the receiving function at
                           the Topeka Material Distribution Center. Management stated
                           that their cost analysis showed a 10-year net cost savings
                           projections of $152,000 to $381,000.

                           Management’s comments, in their entirety, are included in
                           Appendix B of this report.

Overall Evaluation of      Management’s actions taken or planned are responsive to the
Management’s               recommendations and should correct the issues identified in
Comments                   this report.

                           However, we disagree with management’s assertion that only
                           $1.25 million of the $15 million in repairable spare parts should



                                                  ii
                                       Restricted Information
Inventory Management and Maintenance                                            AC-AR-03-004
 Repair Operations


                           be considered excess. We considered the additional
                           information provided by management identifying $2 million as
                           items for equipment near its end of life and $4 million as
                           insurance items that can no longer be purchased on the open
                           market. As a result, we have revised the total amount of
                           excess spare parts from $15 million to $9 million.

                           We also disagree with management’s net cost savings
                           projections of $152,000 to $381,000 over a 10-year period.
                           Based on our review of the cash flow methodology and
                           analysis provided by management, we revised our cost
                           savings projections to reflect the current escalation rate and
                           the contractor labor rate. As a result, we revised our cost
                           saving projections that ranged from $1.7 million to $2.7 million
                           to $1.15 million over 10 years for consolidating the receiving
                           function and reassigning the five employees.




                                                 iii
                                       Restricted Information
Inventory Management and Maintenance                                          AC-AR-03-004
 Repair Operations


                                       INTRODUCTION
 Background                  The Topeka Material Distribution Center in Topeka, Kansas,
                             is responsible for contracting, purchasing, stocking, and
                             managing repairable spare parts for mail processing
                             equipment. Repairable mail processing equipment spare
                             parts are also stored at the Critical Parts Center in
                             Indianapolis, Indiana. Broken repairable and warranty parts
                             from field locations are sent to the Topeka Material
                             Distribution Center for routing to the appropriate repair
                             facility. Some broken repairable parts are sent directly to
                             the Indianapolis Repair Facility. The Indianapolis Repair
                             Facility located in Indianapolis, Indiana, and the Central
                             Repair Facility in Topeka, Kansas, repair broken repairable
                             parts.

                             The Postal Service uses several information systems to
                             manage repairable parts. The Material Distribution and
                             Inventory Management System is the national level material
                             management information system used by both centers. In
                             the field, Visual Maintenance Activity Reporting and
                             Scheduling is the primary system used for ordering parts
                             from Topeka’s Material Distribution Center, which also
                             controls maintenance activity within the Postal Service
                             facility. The two systems are integrated and data from both
                             systems are updated daily.

                             The manager of Maintenance Policies and Procedures
                             under the vice president, Engineering, develops, defines
                             and disseminates maintenance policies, guidelines, and
                             strategies for Postal Service equipment, including mail-
                             processing equipment. The Maintenance Technical Support
                             Center in Norman, Oklahoma, provides information,
                             methods, technology, and technical support to maintenance
                             personnel.

 Objectives, Scope,          Our objectives were to determine whether inventory
 and Methodology             stockage levels for mail processing equipment were
                             appropriate and to identify cost saving opportunities in
                             maintenance and repair operations. To review inventory
                             stockage levels, we obtained on-hand inventory balances
                             for 1,648 mail processing equipment parts as of April 2002
                             at the Topeka Material Distribution Center.




                                                  1
                                       Restricted Information
Inventory Management and Maintenance                                                                 AC-AR-03-004
 Repair Operations


                                   To determine if the inventory levels were appropriate or in
                                   excess, we reviewed the on-hand balances2 for the
                                   1,648 stock numbers in Topeka and subtracted the demand
                                   for accounting periods 1 through 8 of fiscal year
                                   (FY) 2002 from the on-hand balances. We interviewed
                                   Postal Service Headquarters officials in the offices of
                                   National Supply Management, Maintenance Policies and
                                   Programs, and the Maintenance Technical Support Center
                                   on policies and procedures for inventory management and
                                   repair operations. In addition we interviewed item
                                   managers, identified as a result of a statistical sample of
                                   234 of the 1,648 parts, to further review inventory
                                   management in Topeka.

                                   To identify cost savings opportunities in maintenance repair
                                   operations, we obtained completed work order data for the
                                   Central and Indianapolis Repair Facilities for the period
                                   October 2000 through April 2002. We observed repair
                                   operations at both facilities. We selected a statistical
                                   sample3 of work order data from both repair facilities to
                                   compare repair cost, workload, operations, and
                                   performance data for each facility to identify cost savings
                                   opportunities. We also interviewed personnel at the Topeka
                                   Material Distribution and Critical Parts Centers, Central
                                   Repair and Indianapolis Repair Facilities, and contractors
                                   on how spare parts were purchased, managed, and
                                   repaired.

                                   This audit was conducted from April 2002 through
                                   March 2003 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We discussed our conclusions and
                                   observations with appropriate management officials and
                                   included their comments, where appropriate.

    Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                                   objectives of this audit.




2
  We employed methodology analogous to that used by Topeka item managers. We allowed eight accounting periods
of inventory instead of the three to five accounting periods used at the Topeka Material Distribution Center, before
evaluating our excess.
3
  The statistical sample was used only to ensure impartiality of items selected. We did not project any factors.



                                                         2
                                              Restricted Information
Inventory Management and Maintenance                                                                   AC-AR-03-004
 Repair Operations


                                            AUDIT RESULTS
Inventory Balances                Inventory balances for mail processing equipment spare
Exceed the Demand                 parts exceeded the demand. Our review of 1,648 spare
                                  part stock numbers indicated that approximately 60 percent
                                  of the line items were in excess of Postal Service’s demand
                                  data. The excess inventory was the result of item managers
                                  maintaining stock levels above demand and overstating
                                  depot spare part estimates for newly deployed mail
                                  processing equipment. As a result, $9 million in mail
                                  processing equipment spare parts above the stocking
                                  objective were in inventory at the Topeka Material
                                  Distribution Center as of April 19, 2002.

                                  Item managers at the Topeka Material Distribution Center
                                  stated that they maintained an on-hand inventory balance of
                                  three to five accounting periods for mail processing
                                  equipment spare parts. However, our review showed that
                                  on hand balances for 984 of the 1,648 spare part stock
                                  numbers had balances that exceeded eight accounting
                                  periods. (See Appendix A for examples.) Generally, item
                                  managers were unable to provide any documentation or an
                                  adequate explanation for the excess balances or how the
                                  excess was being managed. In addition, item managers did
                                  not request or use information management reports that
                                  identified stock numbers that exceed the five accounting
                                  periods threshold, even though the information was
                                  available. Instead, item managers said they only review
                                  weekly management reports to ensure they could
                                  accommodate the field’s five accounting periods spare part
                                  requirement. In addition, information reflecting inventory
                                  balances that exceed the five accounting periods threshold
                                  was only used annually to identify parts that should be
                                  written-off in preparation for the annual budget.

Initial Provisioning of           Estimates for the initial provisioning of depot spare parts4
Depot Spares                      contained in the initial kits were sometimes overstated. Our
                                  review of 234 stock numbers for mail processing equipment
                                  spare parts indicated that 37 line items had excess depot
                                  spare parts valued at approximately $1 million. This
                                  occurred because the number of spare parts purchased
                                  were in excess of the Postal Service’s need. Postal Service
                                  officials stated that depot spare parts requirements for new
4
 Depot spare kits, which are issued to the Topeka Material Distribution Center, consist of parts needed to support
newly deployed equipment.



                                                         3
                                              Restricted Information
Inventory Management and Maintenance                                            AC-AR-03-004
 Repair Operations


                            equipment are estimated when demand history is not
                            available. In addition, Postal Service officials stated that
                            estimates were based on their experience, knowledge of
                            spare parts previously deployed with similar equipment, and
                            testing data that describes the new part expected failure
                            rate analysis. They also stated that during the initial
                            provisioning conference, management made the best
                            decision they could based on the available information.

                            For example, 8 of 37 stock numbers with excess were repair
                            parts for the newly deployed Automated Flat Sorting
                            Machine 100. Automated Flat Sorting Machine
                            100 deployment began in April 2000 and ended in
                            April 2002. Postal Service officials provided documentation
                            that indicated that they estimated 450 depot spares were
                            needed for the eight line items in our sample. However, we
                            were able to determine that the national demand for these
                            parts was only 80 for the eight accounting periods ending
                            April 19, 2002. Additionally, Postal Service officials
                            provided documentation that indicated that they estimated
                            90 depot spare parts were needed for three stock numbers
                            in our sample that were used to support Phase II
                            deployment of the Automated Flat Sorting Machine 100.
                            Our review indicated that only five of these depot spares
                            were actually needed over the eight accounting periods
                            reviewed in our sample.

                            Postal Service officials stated they were aware of the
                            problem and that they had established a Provisioning
                            Improvement team in December 2001 to evaluate
                            the process used to estimate depot spares for new
                            equipment deployment. The team included Postal Service
                            officials from Engineering and the Topeka Material
                            Distribution Center and four of their major contractors.
                            According to Postal Service officials the Provisioning
                            Improvement team was expected to provide management
                            with recommendations on how to improve the initial
                            provisioning process. Officials told the Office of Inspector
                            General (OIG) they issued the report in December 2002.

Excess Parts Awaiting       During our audit, we identified approximately 47,000 broken
Final Disposition           mail processing equipment parts at the Topeka Material
                            Distribution Center that were awaiting final disposition.
                            Parts arriving in the Topeka Material Distribution Center are




                                                  4
                                       Restricted Information
Inventory Management and Maintenance                                                                    AC-AR-03-004
 Repair Operations


                                   received and placed in a holding area until the item
                                   manager determines whether the part should be repaired.
                                   However, approximately 42 percent of the parts had been
                                   on hand for at least 8 months at the time of our review, with
                                   some parts awaiting disposition for about 4 years. We
                                   estimate the value of the parts at about $13 million5 if
                                   repaired.

                                   According to the Inventory manager at the Topeka Material
                                   Distribution Center, the majority of broken parts “Not Ready
                                   for Issue” were awaiting repair because item managers did
                                   not authorize the repairs because they already had
                                   sufficient repaired parts in inventory. For example, we were
                                   able to determine that about 43 percent or 70 of the
                                   161 stock numbers with excess in our sample also had
                                   broken parts in the holding area awaiting repair. Postal
                                   Service officials acknowledged the problem during the
                                   course of the audit and began conducting a review of
                                   broken parts at the Topeka Material Distribution Center to
                                   determine whether the parts should be repaired or turned in
                                   for disposal. Postal Service officials informed the OIG in
                                   November 2002 that they have disposed of approximately
                                   14,800 parts.

Recommendation                     We recommend the vice presidents, Supply Management
                                   and Engineering:

                                       1. Reevaluate authorized stock levels for mail
                                          processing equipment repair parts and ensure that
                                          stock levels are reflective of demand data in the
                                          Material Distribution and Inventory Management
                                          System.

Management’s                       Management agreed with the intent of the recommendation
Comments                           and stated they will review the stocking objective process
                                   for maintaining a minimum of three accounting periods and
                                   a maximum of five accounting periods of stock on hand.
                                   Management also stated that stocking levels would be
                                   established using demand data, future forecasts, and life


5
  Postal Service officials told us that these parts have a zero value while awaiting repair. The Material Distribution
and Inventory Management System computes the unit price for repairable parts based on the cost for a new part in
inventory and the repair cost for this item when repaired and returned to inventory. We computed the value of these
parts to be $13 million based on the system price.




                                                          5
                                               Restricted Information
Inventory Management and Maintenance                                             AC-AR-03-004
 Repair Operations



                            cycle considerations. Supply Management will complete
                            this review by the end of quarter 4, FY 2003.

Recommendation              We recommend the vice presidents, Supply Management
                            and Engineering:

                                2. In coordination with the Provisioning Improvement
                                   team, develop a systemic process for estimating
                                   depot spare parts. At a minimum, the process should
                                   include testing reliability data that identifies time
                                   between failures and encourages the use of common
                                   parts that are already being used to support other
                                   pieces of mail processing equipment.

Management’s                Management agreed with the recommendation and will
Comments                    develop a solicitation provision that will encourage suppliers
                            to use common parts that are already being used to support
                            other pieces of mail processing equipment. This provision
                            will be completed and recommended for use to Engineering
                            during quarter 3, FY 2003.

Recommendation                  3. Identify excess repair parts for mail processing
                                   equipment at the end of its life cycle and dispose of
                                   parts that are no longer needed.

Management’s                Management agreed with the recommendation and stated
Comments                    that the Postal Service budgets for disposal of excess repair
                            parts for mail processing equipment at the end of the life
                            cycle on an annual basis. Management stated they have
                            budgeted $5.4 million for inventory write-offs and mark
                            downs to lower-cost-or-market value in FY 2003. Supply
                            Management will complete these additional write-offs and
                            adjustments during quarter 4, FY 2003.

Evaluation of               Management’s comments are responsive to
Management’s                recommendations 1, 2, and 3. Management’s actions,
Comments                    taken or planned, should correct the issues identified in the
                            report.




                                                  6
                                       Restricted Information
Inventory Management and Maintenance                                             AC-AR-03-004
 Repair Operations



Recommendation              We recommend the vice presidents, Supply Management
                            and Engineering:

                                4. Utilize the $15 million in excess mail processing
                                   equipment repairable spare parts that are above the
                                   normal demand prior to making any new spare part
                                   purchases for mail processing equipment.

Management’s                Management agreed with the intent of the recommendation.
Comments                    They stated that item managers currently review all
                            repairable spare parts prior to placing work orders to repair
                            or buy new items. However, they disagreed that $15 million
                            in excess mail processing spare parts were in inventory at
                            the Topeka Material Distribution Center. Management
                            stated that of the 984 items identified as excess,
                            approximately $13.75 million is not considered excess.
                            Management stated they stratified the 194 highest dollar
                            items and found that $5 million are newly provisioned items
                            having less than adequate demand data for determining
                            actual need. A second group of items totaling $4 million are
                            insurance items held in stock for catastrophic contingencies.
                            A third group totaling $2 million are end of life items that
                            cannot be repaired or replaced due to obsolescence. For
                            the other repairable spare parts, only $1.25 million can be
                            defined as excess.

Evaluation of               Management’s comments are responsive to the
Management’s                recommendation and their actions, taken or planned, should
Comments                    correct the issues identified in the report.

                            However, we disagree with management’s assertion that
                            only $1.25 million of the $15 million in repairable spare parts
                            should be considered excess. We considered the additional
                            information provided by management identifying $2 million
                            as items for equipment near its end of life and $4 million as
                            insurance items that can no longer be purchased on the
                            open market. As a result, we have revised the total amount
                            of excess spare parts from $15 million to $9 million.

                            Management stated that $5 million of the $15 million in
                            excess repairable spare parts were for newly provisioned
                            items and that there was not adequate demand data for
                            determining actual need. However, we found that
                            83 percent of the items listed by management had demand


                                                  7
                                       Restricted Information
Inventory Management and Maintenance                                            AC-AR-03-004
 Repair Operations


                            data for at least eight accounting periods, which could have
                            been used by item managers to develop a stocking
                            objective. Item managers are only required to maintain
                            three to five accounting periods of supply. Also, Postal
                            Service officials acknowledged that the process used for
                            estimating initial provisioning items was problematic and
                            established a Provisioning Improvement team in
                            December 2001. Our discussions with Provisioning
                            Improvement team members and item managers confirmed
                            that estimating procedures for newly provisioned items
                            contributed to excess supplies being on hand. In addition,
                            management has agreed to develop a systematic process
                            for estimating depot spare parts, which at a minimum would
                            include testing reliability data that identifies time between
                            failures and encourages the use of common parts that are
                            already being used. Therefore, we still believe
                            management should use the $5 million in repairable spare
                            parts identified as newly provisioned items prior to making
                            any new purchases.

Recommendation              We recommend the vice presidents, Supply Management
                            and Engineering:

                                5. Repair or dispose of broken parts identified as “Not
                                   Ready for Issue” at the Topeka Material Distribution
                                   Center.

Management’s                Management agreed with the intent of the recommendation
Comments                    and stated that not all “Not Ready for Issue” broken parts
                            can be disposed of without jeopardizing future mail
                            processing equipment operations and maintainability. In
                            addition, premature repair of these items would incur time
                            and material costs and inflate inventory balances
                            unnecessarily. Management stated they reviewed the “Not
                            Ready for Issue” broken parts and disposed of
                            approximately 14,800 parts. They also stated Supply
                            Management will conduct another review during quarter 3,
                            FY 2003.

Evaluation of               Management’s comments are responsive to the
Management’s                recommendation. Management’s actions, taken or planned,
Comments                    should correct the issues identified in the report.




                                                  8
                                       Restricted Information
Inventory Management and Maintenance                                               AC-AR-03-004
 Repair Operations



Duplicate Receiving         The Topeka Material Distribution Center broken parts
Department                  shipping and receiving department duplicated the receiving
                            operation of the Central Repair Facility. According to Postal
                            Service officials, the Topeka Material Distribution Center and
                            Central Repair Facility shipping and receiving departments
                            were set up separately when the operations were established.
                            As a result, we believe the Postal Service can save
                            $1.15 million over a 10-year period by eliminating the shipping
                            and receiving department in the Topeka Material Distribution
                            Center and reassigning staff to other positions within the
                            Postal Service.

                            At the time of our review, the Topeka Material Distribution
                            Center had five full-time employees assigned to the shipping
                            and receiving function. When a repairable item is received in
                            the Topeka Material Distribution Center receiving area, the
                            part is placed in the broken parts inventory holding area until
                            an item manager authorizes the repair. Postal Service
                            employees then send the part either to the Central Repair
                            Facility, the Indianapolis Repair Facility, or to the vendor if the
                            item is still under warranty. However, if the contractor’s staff
                            at the Central Repair Facility was allowed to receive, process,
                            and store all the repairable parts; the receiving function at the
                            Central Repair Facility and the Topeka Material Distribution
                            Center could be consolidated.

                            By consolidating and allowing the receiving function to be
                            performed at the Central Repair Facility, the Postal Service
                            could eliminate duplicate receiving, shipping, and storing
                            functions at the Topeka Material Distribution Center. Also,
                            repairable parts authorized for repair would already be at the
                            repair facility, thereby eliminating the need for additional
                            handling. The contractor’s staff at the Central Repair Facility
                            already has partial access to the inventory management
                            system. The staff would only need additional software
                            applications and login authorities, which would reduce delays
                            in processing items from the broken parts holding area.

Recommendation              We recommend the vice president, Engineering:

                                6. Perform a cost benefit analysis of consolidating the
                                   receiving function at the Central Repair Facility and
                                   eliminating the function at the Topeka Material
                                   Distribution Center to achieve the potential cost


                                                  9
                                       Restricted Information
Inventory Management and Maintenance                                               AC-AR-03-004
 Repair Operations


                                   avoidance. If potential savings are identified, modify
                                   the Central Repair Facility contract to allow the
                                   contractor to receive, store, and repair repairable items
                                   and ship repaired items to either the field or distribution
                                   centers.

Management’s                Management agreed with the intent of the recommendation
Comments                    stating they would perform a cost/benefit analysis of
                            consolidating the receiving function at the Central Repair
                            Facility and the Topeka Material Distribution Center.
                            Management disagreed with the monetary impact of the OIG’s
                            10-year cost savings projection of $1.7 to $2.7 million.
                            Management stated that their cost/benefit analysis showed a
                            10-year net cost savings projections of $152,000 to $381,000.

Evaluation of               Management’s comments are responsive to the
Management’s                recommendation and their actions, taken or planned, should
Comments                    correct the issues identified in the report.

                            However, we disagree with management’s net cost savings
                            projections of $152,000 to $381,000 over a 10-year period
                            because management used a lower labor rate for the
                            five clerks. A national average fully loaded (salary, fringe, and
                            service wide cost) rate should have been used, per Postal
                            Service Finance memo dated March 2002. Based on our
                            review of management’s documentation, we revised our cost
                            savings projections to reflect the current escalation rate for
                            Postal Service labor effective November 2002, and compared
                            labor costs using only one scenario with five employees for
                            both the Postal Service and the contractor. Also, we used
                            the current contractor labor rate provided by management.
                            As a result, we changed our cost saving projections to
                            $1.15 million over 10 years.




                                                 10
                                       Restricted Information
Inventory Management and Maintenance                                            AC-AR-03-004
 Repair Operations



Matters for Postal          During our audit, the contracting officer representative stated
Service Management          that the repair operation at the Indianapolis Repair Facility
Consideration               was under review for a possible relocation to Memphis,
                            Tennessee. Also, located at the Indianapolis Repair Facility is
                            the Critical Parts Center. The Critical Parts Center maintains
                            and distributes support equipment for several programs
                            including, POS-One, Dinero Segura, and Delivery
                            Confirmation. With the possible relocation of the repair
                            operations, the programs mentioned above would remain at
                            the Indianapolis Repair Facility as the Program Support
                            Center.

                            We determined that the Great Lakes Facility Service Office
                            established a 10-year nonterminating lease for the
                            Indianapolis Repair Facility. The nontermination clause is
                            scheduled to expire in October 2008. However, the personal
                            service contract for the facility operations terminates in
                            September 2004. If the Indianapolis Repair Facility vacates
                            the space in 2003, as proposed, the Postal Service will be
                            responsible for about $924,000 of leasing cost over a 5-year
                            period. Absent of subleasing the space, the Postal Service
                            would be paying for unused space. At the time of our review,
                            we did not receive any documentation or analysis that would
                            adequately explain how the proposed move of the repair
                            operations from Indianapolis to Memphis would produce
                            significant cost savings.

Management’s                Management stated that they examined multiple options to
Comments                    move the Indianapolis Repair Facility/Critical Parts Center to
                            Memphis, Tennessee. It was jointly determined between
                            Supply Management and Engineering that due to the cost of
                            setting up a facility and the nontermination clause of the
                            current lease in Indianapolis, there was not a sufficient margin
                            of savings to justify a move at this time.

Evaluation of               Management’s comments are responsive and address the
Management’s                issues identified in the report.
Comments




                                                 11
                                       Restricted Information
Inventory Management and Maintenance                                                                   AC-AR-03-004
 Repair Operations




                                                    APPENDIX A
                     TOP TEN STOCK NUMBERS WITH EXCESS PARTS IN INVENTORY

                                                                             Balance on
     National Stock Number               Description        Unit Cost       Hand Topeka   Demand   Excess   $ Value of Excess
       5963-02-000-4597                   MODULE            $1,723              281          30     251         $ 432,531
       7025-04-000-6076                 DISK DRIVE            $ 617             714          58     656         $404,942
       7042-04-000-2380                   SWITCH            $2,081              200          10     190         $395,457
       7010-04-000-3327            COMPUTER, PC SERVER      $ 3,767             109           8     101         $380,434
       5998-03-000-4671               CARD ASSEMBLY          $9,872              39           5      34         $335,638
       5998-04-000-4087               CARD ASSEMBLY         $ 3,541              89           3      86         $304,508
       7025-04-000-9158             VERIFIER/INSPECTOR      $ 1,667             189           8     181         $301,727
       5998-04-000-4783             PCB ASSY, ANALYZER       $1,669             168          14     154         $257,031
       6720-05-000-9940           CAMERA, HEAD ASSEMBLY     $ 4,950              50           0      50         $247,500
       5998-03-000-4928               PCB ASSY, BASE        $ 4,661              55           9      46         $214,418




                                                             12
                                                   Restricted Information
Inventory Management and Maintenance                            AC-AR-03-004
 Repair Operations




                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                 13
                                       Restricted Information
Inventory Management and Maintenance                            AC-AR-03-004
 Repair Operations




                                                 14
                                       Restricted Information
Inventory Management and Maintenance                            AC-AR-03-004
 Repair Operations




                                                 15
                                       Restricted Information
Inventory Management and Maintenance                            AC-AR-03-004
 Repair Operations




                                                 16
                                       Restricted Information
